<html>
<title> - NEXTGEN FEDS: RECRUITING THE NEXT GENERATION OF PUBLIC SERVANTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                             NEXTGEN FEDS:
                     RECRUITING THE NEXT GENERATION
                           OF PUBLIC SERVANTS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2019

                               __________

                           Serial No. 116-65

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-997 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------         
                       
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Frank Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                      
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Mark Meadows, North Carolina, 
    Columbia,                            Ranking Minority Member
John P. Sarbanes, Maryland           Thomas Massie, Kentucky
Jackie Speier, California            Jody Hice, Georgia
Brenda L. Lawrence, Michigan         Glenn Grothman, Wisconsin
Stacey E. Plaskett, Virgin Islands   James Comer, Kentucky
Ro Khanna, California                Ralph Norman, South Carolina
Stephen F. Lynch, Massachsetts       W. Gregory Steube, Florida
Jamie Raskin, Maryland
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 25, 2019...............................     1

                               Witnesses

Panel 1

The Honorable Carolyn B. Maloney, Member of Congress, 12th 
  District of New York, U.S. House of Representatives
Oral Statement...................................................     5

Panel 2

Robert Goldenkoff, Director of Strategic Issues, Government 
  Accountability Office
Oral Statement...................................................    10
Margot Conrad, Director, Federal Workforce Programs, Partnership 
  for Public Service
Oral Statement...................................................    11
Anthony M. Reardon, National President, National Treasury 
  Employees Union
Oral Statement...................................................    13
Rachel Greszler, Research Fellow, The Heritage Foundation
Oral Statement...................................................    15

Written opening statements and the witnesses' written statements 
  are available on the U.S. House of Representatives Repository 
  at: https://docs.house.gov.

                           Index of Documents

                              ----------                              

The documents entered into the record during this hearing are 
  listed below, and are available at: https://docs.house.gov.

  * Letter from the Federal Postal Coalition; submitted by Rep. 
  Maloney.

  * Letter from the National Partnership for Women and Families; 
  submitted by Rep. Maloney.


 
                             NEXTGEN FEDS:
                     RECRUITING THE NEXT GENERATION
                          OF PUBLIC SERVANTS

                              ----------                              


                     Wednesday, September 25, 2019

                   House of Representatives
              Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:14 p.m., in 
room 2154, Rayburn Office Building, Hon. Gerald E. Connolly 
(chairman of the subcommittee) presiding.
    Present: Representatives Connolly, Norton, Sarbanes, 
Khanna, Raskin, Meadows, Massie, Grothman, Norman, and Steube.
    Also present: Gomez.
    Mr. Connolly.
    [Presiding.] The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    The subcommittee is assessing how to build an effective 
Federal work force in the 21st century. I now recognize myself 
for an opening statement, and then I will recognize the ranking 
member. By the way, welcome to our colleague and member of the 
committee, Representative Maloney.
    The need to build the next generation of Federal employees 
has never been greater. According to the Office of Personnel 
Management, in 2017, 69 percent of the Federal work force was 
over the age of 40. Only 54 percent--15 percent fewer--of the 
total civilian labor force fit that category. When it comes to 
recent graduates, the Federal work force is woefully behind. At 
the end of 2018, only six percent of the Federal work force was 
under the age of 30; in the private sector, 24 percent.
    This means agencies across the Federal Government are at 
risk of losing institutional knowledge as older employees 
retire, and agencies find themselves unable to recruit new 
employees for the future generation of civil servants. It means 
the Federal Government will lack experienced leadership because 
agencies are currently failing to find and train people in 
their 20's and 30's who can and will fill leadership and 
management roles in the next 15 to 20 years. It means taxpayers 
will end up paying the price due to a widening skills gap in 
critical occupations across the Federal Government, hindering 
agencies' ability to fulfill their missions on behalf of the 
American people.
    Today's hearing will focus on what the Federal Government 
can do to attract the next generation of Federal employees to 
public service, and discuss how the Federal Government as an 
employer can and should compete with the private sector for 
that talent.
    In this Congress, the Committee of Oversight and Reform, 
and this subcommittee in particular, have conducted extensive 
oversight in programs that have gone awry, and have either 
endangered the safety and security of our Nation or have wasted 
taxpayer dollars. We have examined missteps related to the 
decennial Census, veterans' healthcare problems, the waste 
created by the Department of Defense's financial management, 
and agency failures in IT management and acquisitions. You will 
notice the ``I'' word appears in none of that work.
    Each of these areas is on the Government Accountability 
Office's high-risk list, and GAO cites critical work force 
skills as gap factors that have led to the placement on that 
list. It is unsurprising that Strategic Human Capital 
Management has been on the GAO high-risk list since 2001. Post 
and pray--posting a job vacancy and praying it will get 
filled--is not a viable human capital strategy for long-term 
success.
    Given the age distribution of the current Federal work 
force and the continuing changing nature of work, the Federal 
Government as a whole must do a better job of attracting and 
retaining top young talent in the Civil Service. Note, I didn't 
say keep them forever or make a permanent career of it. A lot 
of young people may not, and probably don't want, a 30-or 40-
year career in one job or in one service. The Federal 
Government is going to have to adapt to that, that that is the 
new normal, and people are going to move in and out of Federal 
service during their careers.
    The Federal Government should look to private sector 
practices when it comes to establishing a pipeline to public 
service, especially those companies that compete for the same 
talent that agencies are looking for to fill current skill 
gaps. For example, agencies could better use current internship 
programs to identify and recruit qualified individuals for jobs 
in the Civil Service, as does the private sector.
    In 2011, I introduced the Federal Internship Improvement 
Act to generate awareness of Federal internships available to 
students, to provide data on the efficacy of the Federal 
Government's use of internships, and to provide a mechanism for 
agencies to systemize those programs, upgrade them, and use 
them to find qualified full-time employees as a recruiting 
tool. This is done routinely in the private sector. I know 
companies that if you are chosen as an intern, there is an 85 
percent chance of a job offer, and almost an 85 percent chance 
you will say yes. That is not the case with the Federal 
Government. Not even close.
    The same year the Obama Administration established the 
Pathways Program to boost recruitment of diverse, entry-level 
hires in the Federal Government through internships and recent 
graduate hiring in the Presidential Management Program for 
students with graduate degrees. However, participation in the 
Pathways Program and agency use of that program as pipeline to 
fill the skills gap remains disappointingly low. For Fiscal 
Year 2014, the last year in which OPM published data, only 15 
percent of competitive Federal Government hires were Pathways 
appointments who had the option to convert to permanent Federal 
positions.
    The Federal Government must also do more to compete with 
the private sector in terms of benefits, and I know our 
colleague, Mrs. Maloney, will talk about this in detail in a 
few minutes. Those benefits and leave policies are essential if 
we are going to fill gaps in highly skilled positions in 
critical sectors, such as information technology, 
cybersecurity, financial management, and the like. In a Harris 
poll published earlier this year, the U.S. government's 
reputation ranked last in comparison to 100 top companies. 
Last.
    Simply put, individuals graduating from top schools are not 
attracted to Federal service for a lot of reasons. This is 
party due to the fact that the Federal Government has struggled 
to offer workplace flexibility and work-life balance in Federal 
service that are available in the private sector. In 2019, the 
Federal Government still does not offer paid family leave to 
its employees, including maternity and paternity leave. As of 
March of this year, 18 percent of private industry workers 
reported some access to paid family leave through the employer, 
and in some cases it is highly generous.
    The availability of paid family leave is even more 
prevalent among professional and technical occupations and 
industries. Full-time workers and workers in large companies, 
many of them the Federal Government competes with for talent, 
such as, for example, the consulting firm, auditing firm 
Deloitte and Amazon. They each offer a minimum of 16 weeks of 
paid leave to male and female employees for childbirth, 
adoption, or other family medical care, versus the Federal 
Government, zero. Agencies are facing situations where 
employees leave their agencies to start a family only to 
startup again as an employee for a contractor or consultant 
hired by the agency to do similar work because they have got 
the benefit coverage. The Federal Government doesn't.
    I am also concerned that the Federal Government continues 
to fall behind the private sector in terms of telework 
opportunities. Telework allows an employee to work from a 
remote or alternative location, thereby reducing commute time 
and allowing employees to work during weather events. We know 
continuity of operations is very important for a series of 
events here in the Nation's Capitol--underscore that--starting 
with 9/11.
    The availability of telework we find is fundamental to the 
recruitment and retention of the next generation. OPM has found 
that compared to other generations, Millennials are almost 
certainly likely to prioritize telework when making employment 
decisions. Is it part of the offering? Yet instead of expanding 
its use, unfortunately some Administration agencies are rolling 
it back. In the past two years, for example, the Departments of 
Agriculture, Education, and Interior have changed their 
policies to limit the number of days employees are permitted to 
work as telework. USDA employees, for example, used to be able 
to telework up to four days a week. Since January 2018, 
employees at that agency have been limited to one day a week.
    The Federal Government can do more to attract and develop 
the next generation of Federal employees. I look forward to 
discussing the issues we have highlighted here as well as other 
opportunities, such as training, work-life balance, and other 
incentives agencies can offer our young and ambitious work 
force looking forward to serving our country in some capacity. 
With that, I am pleased to call on my partner in this 
enterprise, the distinguished ranking member, former chairman 
of this subcommittee, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for calling 
this hearing, and obviously the Federal work force plays a 
critical and important role in the functioning of our 
government. It is one of the areas that honestly we have been 
able to work in a bipartisan manner, and that is not normally 
the way that you would see this particular issue. But you and I 
both agree that the Federal work force and how we go about 
attracting new talent needs to be reformed.
    For the past two decades almost, the GAO has warned us 
about the skills gap and what is going to happen. They have 
been sounding the alarm and saying, you know, you need to do 
something about it, and sadly, we have done nothing. By 
nothing, we still have a 40-year-old Civil Service act that 
needs reform. The way that we attract new talent is critical.
    But it is not just on these critical fields that need to be 
addressed through STEM careers. It is really across the board. 
You know, in this new day of attracting young talent, the 
grayer I get, the more I realize the work force, the way that 
it was when I went to work is changing, and so we have to adapt 
to that. I have got a statistic here that says only 6.1 percent 
of Federal workers are under the age of 30. To me, when you are 
attracting talent, you want to go out and get the brightest and 
the best. I know that when my kids were going to college and on 
to law school, it was not necessarily saying you need to go to 
work for the Federal Government. In fact, the Federal 
Government didn't even make the top five in terms of priority. 
So we need to work together on that.
    As we look at this, the National Commission on the 
Military, National and Public Service has warned that, ``Many 
agencies at all levels of government lack effective systems to 
hire students and recent graduates.'' Sometimes it is just 
making sure that those students know that there is an 
opportunity, one, but they are wanted is the second part of 
that. We will lose out so many times because recruiters will go 
in. Especially in an environment when the unemployment is as 
low as it is, it is a very difficult and challenging time.
    You know, it takes 106 days, an average of 106 days, to 
hire a Federal employee. I mean, listen, we have got to do 
better than that. And I can tell you, that is not just with the 
background checks. That is not with the security clearances, 
because what we do is a lot of times we will give them a 
temporary clearance so that they can come in. If we calculated 
that in until the point where they are at full steam, it would 
be even more problematic.
    One of the areas has been a pet peeve for me on this 
committee, that the chairman and I have agreed on, is really 
looking at the Federal Employee Viewpoint Survey and using that 
as a benchmark in terms of what happens, how it should happen, 
and to deal effectively with underperforming employees. When 
you look at the demotivating factor of employees who feel like 
they are not getting recognized, their input doesn't matter, 
the promotions are not based on merit, that it is all in who 
you know or who you happen to be associated with, we have got 
to change that. Now, it will require a leap of faith, and a 
bipartisan leap of faith, to do that because if you break 
anything that is 40 years old, they always say, well, I love 
the way that it was, but.
    So I think that we are committed. I don't want to speak for 
the chairman, but I know in the privacy of our conversations, 
working hand in hand to actually make a difference to make sure 
that the Federal work force is not only the best, but the best 
recognized, the best financially rewarded, and ultimately where 
it becomes a path that makes the top 10 instead of the bottom 
10 in terms of priority in going to work there. With that, Mr. 
Chairman, I yield back.
    Mr. Connolly. I thank my friend. Now, it gives us great 
pleasure to welcome our first witness. Our colleague from New 
York will speak about her legislation, which I am----
    Mr. Meadows. Do we get time for rebuttal with her?
    [Laughter.]
    Mr. Connolly. We, of course, will have lots of rebuttal 
time. But anyway, we are delighted Congresswoman Maloney, for 
your leadership on a very important issue. As I indicated in 
the opening statement, family leave, family priorities, a pro-
family environment is going to be critical, frankly, if we want 
to recruit the Millennial generation, and we need to. So your 
legislation, it seems to me, is more timely than ever. I know 
we were able successfully to get it onto the defense bill, and 
we may have to take independent action again here.
    But I look forward to your testimony. Welcome the 
committee, and thank you in advance for your leadership on such 
a critical issue that affects so many people potentially 
positively. Thank you.

   STATEMENT OF HON. CAROLYN B. MALONEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mrs. Maloney. Thank you so much, Chairman Connolly, and 
Ranking Member Meadows, and fellow members of the committee for 
the opportunity to testify about a bipartisan policy approach 
that positions the Federal Government to compete for the next 
generation of top talent that will serve the American people, 
H.R. 1534, the Federal Employee Paid Leave Act.
    This is a bill that is critically important to me. As a 
mother, I know firsthand the challenges of balancing work and 
family. I vividly remember when I was pregnant with my first 
daughter going to the personnel office and asking them what 
their paid leave policies were, and their response was, we 
don't have any policy. We expect you to leave. I said, I don't 
want to leave. I need to work. I plan to come back. And this is 
what they said: ``You'll be the first one. We expect you to 
leave.'' Well, I did come back.
    But I would say that for a country that talks about family 
values, when you look at the policies that we have in place for 
flex time, for affordable and available childcare, for leave 
for the birth of a child, for sick leave, we are really far, 
far behind the rest of the world. According to a study by the 
United Nations, out of 187 countries, only two do not provide 
paid leave for the birth of a child, the great United States of 
America and Papua New Guinea. We do not want to be on that 
list. Believe me, 185 countries cannot be wrong. We are far, 
far behind the world in the policies of providing for our 
people to balance work and family.
    To your issue today about the Federal work force, it is 
aging, and our economy is changing. Women are working more and 
more because they have to because it takes two incomes to keep 
a family alive. In 2017, the average age of the U.S. Federal 
worker was 47 years, and at the end of 2018, only six percent 
of the Federal work force will be under the age of 30. More 
broadly, throughout our country women serve as the sole or 
primary breadwinners in 40 in of the households with children 
under the age of 18, and two out of three families now depend 
on the wages of working moms. These glaring statistics reveal a 
pressing need to recruit the next generation of talented civil 
servants to fill the coming retirement void, while also 
allowing the ability for aging workers to care for themselves 
and their loved ones.
    The Federal Employee Paid Leave Act is an important and 
long-overdue step that will make our Federal work force better 
positioned to effectively serve the American people today and 
into the future. The act builds on the Family Medical Leave Act 
of 1994. Before that, women were fired when they became 
pregnant, but after 1994, 12 weeks of unpaid leave was afforded 
to families in America. President Clinton, who signed this bill 
into law, told me of all the things he did in his eight years 
of office, more people came up and thanked him for the Family 
and Medical Leave Act, which we are trying to enhance with pay, 
now today than any other thing he did while in office.
    Our bill, the one that I have authored along with you and 
many others on the committee, would provide Federal employees 
with 12 weeks paid leave in a Calendar Year for the birth, 
fostering or adoption of a child, applying to both parents--
both the father and mother are covered--the care of an ill 
spouse, child, or parent, a serious medical personal condition, 
or a qualifying circumstance due to a spouse, child, or parent 
assigned to active duty in the military. The Federal Government 
needs to lead from the front when it comes to family friendly 
workplace policies, and has a unique opportunity to do so with 
this bill that will provide a critical benefit to over 2 
million Federal workers.
    The research on the benefits of paid leave speak for 
themselves. Family friendly policies reduce turnover retention 
by 37 percent, and Federal agencies' turnover is expensive and 
costs between 16 and 200 percent of a worker's annual salary. 
Studies also indicate we could prevent the departure of well 
over 2,600 female employees per year, saving the government $50 
million per year in costs associated with employee turnover. 
Paid family leave improves productivity, reduces turnover, 
boosts morale, and attracts more talent. It also provides a 
benefit to families and the broader economy. Paid leave is 
associated with reduced infant mortality, improved child and 
maternal health, higher labor force participation for women, 
which equates to higher family incomes, and growth in the 
economy as a whole. It provides so much.
    Federal employees have suffered years of pay freezes and 
government shutdowns. These are not the actions of a model 
employer. How can we expect to recruit and retain talent if we 
do not match the private sector in offering paid leave? As the 
chairman said, this is one area where the private sector leads. 
They are far ahead of the public sector, which usually sets a 
model program and leads, so we have a lot of catching up to do. 
Job security, a respect for workplace, and adequate pay and 
benefits are the least we could provide to retain and to 
attract the top-tier individuals we need to run our government.
    The U.S. Federal work force provides invaluable and 
essential services that keep our country safe and prosperous. 
Federal employees research the next medical breakthrough, 
protect our environment, secure our airports, our 
infrastructure, keep us safe, inspect our food, monitor banks, 
and so much more. Provide our mail. These men and women 
dedicate their lives and service to their country, and it is 
time our country does more to recognize all that they do.
    Our legislation has 47 co-sponsors and was included in the 
House-passed Fiscal Year 2020 National Defense Authorization 
Act. The Senate version did not include paid family leave. It 
is now being worked through in the conference committee, and I 
am hopeful that Congress will retain this provision in the 
final bill. If not, I hope this committee will report out the 
bill and move it quickly through the House.
    I have two letters in support of FEPLA, one by the Federal 
Postal Coalition, signed by 21 public service employees and 
unions. The other is led by the National Partnership for Women 
and Families, and it was co-signed by 94 leading organizations 
who represent Federal workers and advocate on behalf of family 
friendly and workplace policies. I'd like to enter both of 
these letters into the record.
    Mr. Connolly. Without objection, so ordered.
    Mrs. Maloney. In conclusion, policies that enable workers 
to care for themselves and their families without risking their 
jobs or economic security are good for workers, families, 
employers, and our Nation. It is well past time that our Nation 
truly honors families by offering this basic benefit for the 
Federal work force.
    Thank you so much. It is a great honor to appear before 
your committee and address my colleagues in Congress. Thank you 
so much for your support, too, for the bill. I yield back.
    Mr. Connolly. Thank you. Thank you, Congresswoman, and 
thank you for your leadership. I just want to, if I may, ask 
two questions. I know you have got a schedule. Forgive me. But 
one is, what is your sense of how important this subject is to 
the Millennial generation we need to tap into for the future 
work force? Is this something nice to have, or is it something 
they view as kind of a sine qua non for employment?
    Mrs. Maloney. This is absolutely essential for young 
workers. Our society has changed. Both the man and the woman 
are working. The mother and the father are working, and both 
incomes are needed to make ends meet for most families. I must 
tell you that I get phone calls from Federal employees, and 
they literally ask me when is your bill going to pass because I 
want to plan my family around having a baby around when the 
bill is passed so that we can have paid leave. We cannot afford 
to take unpaid leave.
    So many, many families are just living on a string, and 
this is a benefit that helps them balance work and family. It 
is absolutely essential. Unlike other countries, most 
industrial countries have this benefit. We stand along with 
Papua New Guinea in terms of the birth of a child. But it is 
absolutely essential. The private sector is providing this. So, 
how are we going to compete and get those Federal workers when 
this basic benefit that is provided by most countries is not 
provided? I have worked on this bill, I am embarrassed to say, 
for 20 years. I got it out of the House twice. It never got 
through the Senate. To me, it is something that is absolutely 
pure. How often do we get to work on something absolutely pure?
    This is good for society, good for individuals, good for 
the overall economy, good for the Federal Government and the 
wellbeing of our Nation. And it is long past due.
    Mr. Connolly. Thank you. The only other question I have got 
is, for the record, should this provision that is in the House 
version of the defense authorization bill not make it through 
conference committee--God knoweth why--obviously it would be 
your desire that the bill that has already passed the House 
come back to our committee, be reported out of our committee as 
a separate spending bill, and brought to the floor for action. 
Is that correct?
    Mrs. Maloney. That is absolutely what we need to do.
    Mr. Connolly. Thank you.
    Mrs. Maloney. Hopefully it passes, but if by some chance it 
doesn't get through the Senate--we have over 240 bills on the 
desk of the Senate waiting for action--so we have to start all 
over again and work very hard to get it thanks through.
    Mr. Connolly. Thank you.
    Mrs. Maloney. Personally, I think it is a scandal that we 
haven't acted on this basic support for families.
    Mr. Connolly. Mr. Norman, any questions on your side before 
we thank Congresswoman Maloney?
    Mr. Norman. Thank you, Congresswoman Maloney. Thank you for 
your testimony. I am from the private sector. We have hired 
over the years a number of people. We have hired people from 
the Federal Government and the local government, and their main 
reason for leaving wasn't pay. It wasn't benefits. It was just 
we're tired of what Mr. Meadows said, the bureaucracy, the red 
tape, the promotions given fairly or unfairly. How does your 
bill rank with extended family leave with the fact that when 
CBO compares pay for Federal employees to the private sector, I 
think what they came up with was the government employees are 
generally better compensated than the private sector? They also 
did a study that the employment benefits are worth 52 percent 
more than similar employees in the private sector.
    When you do the retirement benefits, private industry, 
private business generally is three to five percent of 
employees' salaries. The Federal Government's is equal 15 to 18 
percent of their salaries. Now, tell me how you justify that in 
light of these facts.
    Mr. Maloney. Well, the fact that what I have worked on is 
balance between work and family because most women working have 
to. If you are going to have a family, you have to have some 
policies in place that help you manage that family. Even with 
the support of a supportive husband, having a baby is 
physically - it is a joyous event - but it is transformational. 
It is life changing. It is very, very challenging in every way, 
shape, and form. To be told that you can't have any leave, you 
are going to lose your job, a lot of people do not want to face 
that particular choice. Families need two incomes to make ends 
meet.
    Now, you gave some very good comparisons with the private 
sector, but in terms of paid leave for the birth of a child, 
the private sector always gives that, and they give paid family 
leave, which encompasses sick leave and taking care of sick 
spouse. You heard the story in the chairman's testimony that 
most Fortune 500 companies provide extensive paid leave for the 
birth of a child. I talked to a friend----
    Mr. Connolly. For both the man and the woman.
    Mrs. Maloney. Yes, exactly, for both the man and the woman. 
I have talked to some of my younger friends, and they were 
saying that they were being given three months' paid leave, two 
months' unpaid leave. That is much, much more than what my bill 
is, which is 12 weeks of paid leave, that just builds on the 
unpaid Family Medical Leave Act that this Congress jointly 
passed. So in terms of comparing paid family leave, the private 
sector is 10 times more ahead of the public sector on this 
particular benefit.
    Mr. Norman. Yes, I guess my thing is there has got to be an 
offset, and the figures I cited, it was combined men and women. 
You could do all of them with 2 million people. It was higher 
than the private sector. So I guess my response was it may be 
they don't have the family leave now, but they are being 
overcompensated in other areas, and there's an offset on that. 
Thank you for your testimony.
    Mrs. Maloney. I want to thank you for your comments, too.
    Mr. Connolly. I want to thank our colleague, Congressman 
Maloney. Again, your leadership is so critical an issue that 
has got to be addressed for so many reasons--fairness, keeping 
families together, promoting family values in a real way--but 
also in the context of this hearing and this subcommittee. The 
future of our Federal work force is certainly going to impinge 
inter alia benefits such as this, recognizing the need of young 
families to be able to address compelling needs. So thank you 
for your leadership, Carolyn, and we wish you well today.
    Mrs. Maloney. Thank you for allowing me to speak to you.
    Mr. Connolly. Absolutely.
    Mrs. Maloney. It is a great honor. Thank you.
    Mr. Connolly. We will follow up on this with the full 
committee.
    I want to welcome our second panel of witnesses, and if 
they could proceed to the witness table.
    We have with us Robert Goldenkoff, director of strategic 
issues at the Government Accountability Office; Margot Conrad, 
director of Federal recruiting and hiring programs for the 
Partnership of Public Service; Anthony Reardon, the national 
president of the National Treasury Employees Union; Rachel 
Greszler, a research fellow at the Heritage Foundation. If all 
of you could stand and raise your right hands. It is the 
practice of our committee to swear in our witnesses, so thank 
you.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [A chorus of ayes.]
    Mr. Connolly. Let the record show all four witnesses 
answered in the affirmative. Thank you. Please be seated.
    The microphones are sensitive, so I would ask you to turn 
on the button when it is your turn or when you are asked a 
question, and speak into microphone like I am doing so that all 
of us can hear you. Now let us see. We are going to ask 
everybody to summarize their testimony within a five-minute 
framework. We will, without objection, enter your full 
statement into the record, as is our custom.
    So, let's see. Mr. Goldenkoff, you are recognized for five 
minutes. Welcome to the Subcommittee on Government Operations.

  STATEMENT OF MR. GOLDENKOFF, DIRECTOR OF STRATEGIC ISSUES, 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldenkoff. Chairman Connolly, Ranking Member Meadows, 
and members of the subcommittee, thank you for the opportunity 
this afternoon to discuss how agencies can recruit and retain 
the next generation of public servants, especially in a tight 
labor market.
    Today's hearing is very timely because next month marks the 
70th anniversary of the Classification Act of 1949. Although 
this law was passed when Harry Truman was President when the 
Federal work force consisted largely of clerks, it is still 
governs how Federal jobs are organized for pay and other 
purposes, and is one of several building blocks of the Federal 
personnel system that is outmoded and undermining agencies' 
efforts to build a high-performing work force.
    As you mentioned earlier, GAO added Federal Strategic Human 
Capital Management to its list of high-risk of government 
programs in 2001. Although Congress, OPM, and individual 
agencies have made improvements since then, it still remains a 
high-risk area because mission critical skill gaps across a 
range of occupations continue to jeopardize agencies' vital 
missions.
    My remarks today will focus, first, on some of the key 
drivers of the government's personnel challenges, and, second, 
talent management strategies that can help agencies overcome 
these challenges and build a top-notch work force to better 
meet their missions. The bottom line is that while agencies' 
efforts to recruit and retain needed staff face a number of 
hurdles, agencies are not helpless, and there are a number of 
actions they can and, in some cases, are already taking within 
their existing authorities and flexibilities to build a high-
performing work force.
    The government's human capital challenges can be traced to 
at least three causes. The first one is structural. Much of the 
current system of Federal employment policies was designed 
generations ago for a work force and types of work that no 
longer exist. Obsolete approaches to job classification, pay, 
and performance management are hampering the ability of 
agencies to recruit, retain, and develop employees. The last 
time the personal system was comprehensively overhauled was 
over 40 years ago with the Civil Service Reform Act of 1978.
    A second reason is that employee demographics are not on 
the government's side. The Federal work force is becoming older 
and increasingly eligible for retirement. For example, nearly 
32 percent of permanent Federal employees who are on board as 
of September 30th, 2017, will be eligible to retire over the 
next five years. At some agencies, 40 percent or more of the 
Federal work force will become eligible to retire during that 
same time period, and they include Treasury, NASA, EPA, and 
HUD. Without proper succession planning, these agencies are at 
risk of gaps in leadership and institutional knowledge.
    A third reason is that agency operations are being deeply 
affected by a set of evolving societal trends that include how 
work is done and the skills and competencies that employees 
need to accomplish agencies' missions. These trends include, 
for example, technological advances in such areas as robotics 
and artificial intelligence, an increased reliance on non-
Federal partners to carry out Federal work, and fiscal 
constraints. Leveraging key talent management strategies could 
help agencies address these challenges. They include, for 
example, the following four activities.
    First, agencies can better align their human capital 
strategies with current and future mission requirements by 
using work force analytics to identify the knowledge and skills 
necessary to respond to current and future demands. Second, 
agencies must also strengthen how they acquire and assign 
talent by using a range of available hiring authorities and 
flexibility, such as internships, to cultivate a diverse talent 
pipeline. Third, agencies must also incentivize and compensate 
employees with market-based and more performance-oriented pay, 
and although agencies may struggle to offer competitive 
salaries in certain labor markets, they can leverage telework 
and other robust work-life balance programs to meet workers 
needs for employment flexibility. Finally, by improving 
employee engagement with more effective supervisors, better 
performance management and staff development, as well as by 
involving staff in decisions that affect them, agencies can 
enhance employee retention.
    So, Chairman Connolly, Ranking Member Meadows, members of 
the subcommittee, this completes my prepared statement, and 
I'll be pleased to answer any questions that you may have.
    Mr. Connolly. You are a pro. You had 10 seconds more to go. 
Good job. Ms. Conrad, you have five minutes. Thank you. 
Welcome.

    STATEMENT OF MARGOT CONRAD, DIRECTOR, FEDERAL WORKFORCE 
            PROGRAMS, PARTNERSHIP FOR PUBLIC SERVICE

    Ms. Conrad. Thank you very much, Chairman Connolly, Ranking 
Member Meadows, and members of the subcommittee. I am Margot 
Conrad, the director for Federal and recruiting hiring programs 
at the Partnership for Public Service, a nonpartisan, nonprofit 
organization dedicated to effective government. In this role, I 
lead the Partnership's efforts to inspire young people to 
consider Federal service, work with agencies to improve talent 
acquisition, and pursue broader hiring systems reforms.
    We are here today to discuss what can be done to help our 
Federal Government attract the next generation of great talent. 
In the private sector, 21 percent of the work force is in their 
20's. In the Federal Government, that number is just six 
percent. Government needs to be able to recruit the next 
generation of talent that can operate in a complex, automated, 
and interconnected world.
    There are three primary barriers. No. 1, government has an 
image problem. Agencies don't do a good job branding 
themselves. I have been all around the country recently talking 
with students on campus, and they can't understand what kind of 
opportunities are in government or how to get in. They are 
frustrated with USAJobs. They find it hard to navigate. Eighty-
two percent of people aged 18 to 34 say that they would apply 
for a job on a smartphone, but USAJobs doesn't have an app, and 
the website on a mobile device is cumbersome to use.
    Hiring freezes and government shutdowns deter potential job 
seekers. Our report released earlier this week, called 
``Shutdown Letdown,'' tells the story of three Pathways interns 
at the Department of Homeland Security who wanted to stay on as 
full-time employees, but they didn't know when the shutdown 
would end, they couldn't wait, and they took private sector 
offers instead. Their jobs are still unfilled today.
    No. 2, agencies don't build for the future. Instead they 
are focusing on immediate needs. Agency missions are evolving, 
and the nature of work is changing. More than 80 Federal 
occupations are expected to be impacted by technology and 
automation, but agencies haven't done the critical strategic 
planning to determine what needs to change and how to align 
their work force and recruitment plans accordingly. Agencies 
don't view internships as an important pipeline of future 
talent. The number of student interns hired fell from 35,000 in 
2010 to 4,000 in 2018, according to the President's Fiscal Year 
2020 budget.
    And No. 3, hiring is complex. The Civil Service System 
hasn't been updated in 40 years. There more than 100 different 
hiring authorities. It takes 106 days on average to hire. 
Agencies compete against themselves and with the private sector 
for talent. Frankly, it is hard to compete for talent with a 
compensation system that dates back to the 1940's.
    So what can Congress do? There are four [steps] we 
encourage Congress to take. No. 1, Congress can help the 
government improve its brand by avoiding shutdowns. Pass 
legislation to end shutdowns and crisis budgeting, and 
celebrate success. Recognize the innovative contributions of 
Federal employees in your districts. Visit agencies to learn 
about their work. Special kudos. I know, Chairman Connolly, you 
have done this and so has the ranking member. It is important, 
and it really makes a difference. Employees feel valued.
    No. 2, make it easier for government to hire students and 
entry-level talent. Create one place that students can go to 
learn about Federal internships. And on the back end of 
USAJobs, create a data base with resumes for individuals who 
have completed internships and can be hired quickly by 
agencies. Enable agencies to hire students and recent graduates 
more quickly, directly, and empower agency heads with more 
authority to make hiring decisions with OPM oversight as 
appropriate.
    No. 3, enable talent to flow in and out of government. 
Young people today are seeking continuous learning and expect 
to have many employers over the course of their career. 
Encourage and facilitate innovative talent models. For example, 
the Partnership has teamed up with MasterCard, Microsoft, and 
Workday, and 12 Federal agencies on an innovative program to 
build the next generation of cyber leaders for our country 
called the Cyber security Talent Initiative. Young people will 
spend two years in a Federal agency with robust leadership 
training and development, and then they will be invited to 
apply for a position with a corporate partner. And they may 
receive loan assistance from the corporate partner if hired. 
Government should consider similar models for other 
occupations.
    The Department of Defense has an authority to use a talent 
exchange approach, and that should be expanded across the 
Federal Government to other agencies. We need to make sure that 
people who leave government can return more easily. They bring 
back valuable knowledge.
    Finally, we need to modernize the Civil Service System. 
Long term, you have got to streamline the hiring process, 
simplify job classification and compensation reform to have a 
market-sensitive compensation system. In the short term, 
Congress can examine and understand what works so that agencies 
can succeed. Invest in H.R. and evaluate the effectiveness of 
different hiring tools.
    Thank you, and I look forward to your questions.
    Mr. Connolly. Thank you so much. Very thoughtful testimony. 
President Reardon. Mr. President.

 STATEMENT OF ANTHONY M. REARDON, NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Mr. Reardon. Thank you. Chairman Connolly, Ranking Member 
Meadows, and members of the subcommittee, thank you for 
inviting me to testify on behalf of the 150,000 Federal 
employees represented by NTEU. I am pleased to be here to 
discuss how the government can build the most effective work 
force, attract skilled and talented individuals, and 
consistently engage Federal employees.
    NTEU strongly supports the merit system principles, which 
ensure that individuals are hired to work for the Federal 
Government based on merit, without regard to their race, age, 
gender, political views, or relationship with the hiring 
official. We also support the application of veterans 
preference as part of our obligation to help those who have 
defended our Nation and our freedom.
    While we recognize that the process used to hire new 
employees can be difficult, agencies rarely use more than a few 
of the multiple hiring flexibilities available to them, and we 
remain concerned with proposals to expand noncompetitive 
eligibility for various groups. History has shown that agencies 
have abused such flexibility, using these programs as a primary 
method of hiring, which undermines veterans preference and the 
principles that ensure a merit-based, nonpartisan Civil 
Service.
    Despite the challenges and onboarding, changes to the 
hiring process will be of little help if the government cannot 
recruit and retain talented individuals. Government shutdowns, 
disparaging comments by government leaders, pay freezes and 
below-market raises, benefits cuts, and efforts to roll back 
workers' rights, all make it harder to recruit a new generation 
of civil servants, and have led many to leave Federal service. 
A recent Senate report noted that in the last five years, 
repeated government shutdowns cost taxpayers nearly $4 billion 
and had an impact on the ability to hire new employees. As 
Congress and the Administration work to finalize spending 
agreements for Fiscal Year 2020, we urge you to keep this in 
mind and do everything you can to prevent another shutdown.
    I would also like to highlight a troubling trend we've seen 
at many agencies: the reduction in the availability of 
telework. Studies show that telework improves performance and 
morale and makes it more likely for employees to stay at their 
jobs. Given the reductions in telework at HHS, NTEU recently 
surveyed more than 1,600 employees there, and found that five 
out of six said reducing or eliminating telework would be a 
factor in deciding to leave the Department. Mr. Chairman, NTEU 
particularly appreciates your efforts to ensure telework is 
available to Federal employees.
    One critical benefit missing from the current list of 
Federal benefits is paid family leave, a necessity for today's 
families that benefits both employees and employers. NTEU fully 
supports the Federal Employee Paid Leave Act, led by 
Representative Maloney, which was also included in the House-
passed NDAA. Few employees can go weeks without pay, and no one 
should be forced to choose between a paycheck and caring for a 
loved one. We ask this committee's help in ensuring the 
enactment of this important benefit.
    Treating employees fairly and making sure they have a voice 
in the workplace also significantly impacts recruitment and 
retention. Unfortunately, the current Administration has 
attempted to undermine employee rights and eliminate 
opportunities for employees to share their ideas and raise 
issues that could impact agency missions. This does not make 
employees feel valued and engaged. Just yesterday I was here at 
the Capitol as hundreds of Federal employees stood together to 
make their voices heard because they are fed up with their 
treatment in the workplace. They aren't asking for special 
treatment. They are simply asking for respect. If skilled 
workers continue to feel disrespected, they will leave Federal 
service, and it will be difficult to convince the next 
generation of workers to consider government service.
    Mr. Chairman, you and many of your colleagues on this 
subcommittee have been great allies of Federal workers. You've 
been leading the charge to ensure fair pay, working hard to 
protect employee benefits, and standing up to ensure workers 
continue to have a voice in the workplace. We sincerely 
appreciate all that you do, but the mere fact that we have to 
fight so hard and so often for these basic things takes its 
toll on the workers that I represent. They are in a constant 
state of an uncertainty, and that has a significant impact on 
morale and on the government's ability to recruit and retain 
talented employees. Ensuring that the Federal Government can 
attract and retain the best and brightest benefits all 
Americans. To do that, we must ensure employees are provided 
fair pay, and benefits, and treatment in the workplace.
    I look forward to continuing to work with the members of 
this subcommittee to do that. Thank you, and I'm happy to 
answer any questions that you may have.
    Mr. Connolly. Thank you, Mr. President. Again, we have 
three pros in a row within five seconds. God bless you. Our 
final witness on this panel is Rachel Greszler. Welcome.

  STATEMENT OF RACHEL GRESZLER, RESEARCH FELLOW, THE HERITAGE 
                           FOUNDATION

    Ms. Greszler. Thank you. I will try to match on the timing. 
In order to carry out their missions, Federal agencies must be 
able to recruit and retain the best and the brightest workers, 
so I would like to focus on three areas today to help achieve 
that. First is by providing competitive compensation, second is 
by improving workplace environments and opportunities, and 
third is using innovation and flexibility to meet the 
government's needs and to help workers grow.
    So first is compensation. Federal employees receive 
significantly higher compensation than their private sector 
counterparts, but the premium is lopsided. The CBO estimates an 
average 17 percent premium for Federal employees, but that 
includes a 53 percent premium for Federal workers with less 
than a high school degree, a 21 percent premium for those with 
a bachelor's degree, and then an 18 percent penalty for Federal 
workers with a master's degree or a professional degree. So to 
help bring public sector pay into parity with the private 
sector, policymakers should reduce the pay differences between 
step increases, and slow the rate at which Federal employees 
receive step increases.
    Moreover, with 99.9 percent of all Federal employees 
receiving pay raises, greater emphasis needs to be placed on 
truly performance-based raises. Policymakers should limit the 
appeals process for pay decisions to within-agency appeals, and 
they should remove the requirement that managers must create 
performance improvement plans for employees simply because they 
decided not to award them a pay raise. Some of the savings from 
these changes should go toward increasing pay for high-demand 
positions, including using existing options, such as special 
payments, signing bonuses, and superior quality appointments.
    Aside from pay, benefits are an even bigger source of 
compensation differences. The Federal Government provides three 
to four times as much in retirement benefits as the private 
sector, and yet workers tend to undervalue pension benefits. 
The government could provide a more appealing and more 
competitive compensation package if pension benefits could 
instead go toward higher pay or toward higher 401(k) 
contributions.
    Paid family leave is another important benefit for workers. 
Over recent years, we've seen tremendous growth in the private 
sector offering paid family leave benefits, and this is not 
just a race to the top among employers that have high-income 
employees, but also with newer access for lower-and middle-
income workers. The 20 largest companies in the U.S.--these are 
companies like Target, Walmart, Starbucks, Lowe's--now all 
provide paid family leave. Since employer-provided policies are 
best for workers, it makes sense for the Federal Government to 
provide paid family leave to its workers. But such a policy 
should replace the current de facto paid leave policy that 
exists through the use of unlimited sick leave accumulation, as 
well as six weeks of advanced sick leave.
    The second area for improvement is creating a positive 
culture in a merit-based workplace that attracts and retain 
good workers. The overwhelming majority of Federal workers are 
hard workers, but the system shelters and even advances 
obstinate employees and sometimes those who don't do their 
jobs. The burden on managers to discipline or remove these 
employees hurt the agency's mission and other employees who 
have to pick up the slack. Policymakers should make it easier 
for managers to address poor performance by limiting the 
appeals process for Federal employees to just one forum instead 
of four, by lowering the burden of proof for dismissing Federal 
employees, by increasing the probationary period from one to 
three years, and expediting the dismissal process in 
particularly egregious cases. It's also important that Federal 
managers have the proper training to understand the tools and 
resources available to them to uphold a merit-based and 
accountable workplace.
    Finally, greater innovation and flexibility can help the 
government meet its needs and also increase its appeal to 
workers. The government's primarily one-size-fits-all H.R. 
policies don't always work well across as many as 430 agencies 
and sub-agencies, 350 different occupations, and 2.1 million 
Federal workers. Moreover, as Millennials with different 
employment expectations replace retiring Baby Boomers, the 
Federal Government will have to create more flexibility in 
their compensation, better engage workers, and provide 
opportunities for growth.
    Some potential avenues include targeted training programs, 
such as the new Federal Cyber-Reskilling Academy, aptitude 
tests similar to the military's, better use of special hiring 
incentives, more flexible compensation packages, and making it 
easier for Federal workers to move across agencies or back into 
the Civil Service. Thank you.
    Mr. Connolly. Again, a pro. Thank you. I want to call on my 
friend, our colleague from Maryland, to begin the questioning, 
Mr. Sarbanes. But before I do, Mr. Reardon, you were very kind 
in your remarks about telework, but I want to point out that 
the chief author of the bill we got on the books during the 
previous Administration was actually chiefly authored by Mr. 
Sarbanes, the Telework Enhancement Act. He was gracious enough 
to allow this freshman at the time to participate in that 
process because I was so committed to telework as a local and 
regional leader in metropolitan Washington. So I salute Mr. 
Sarbanes for his leadership. He and I are collaborating on a 
followup bill that we hope will become law in this Congress.
    Thank you, Mr. Sarbanes, for your leadership, and you are 
recognized for your line of questioning.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you for 
convening this. Thanks to the witnesses. I was still relatively 
new here myself, but I was smart enough to spot that you would 
be an incredible resource and asset on that topic. I am glad we 
have had the opportunity to work together over the years and 
most recently to try to strengthen telework within Federal 
agencies.
    I did want to ask a question about that to Mr. Goldenkoff. 
The Federal Workplace Survey Report that was released in March 
found that 35 percent of employees--this is March 2018--
currently use telework, but 58 percent desire to telework or at 
least telework more often. You talked in your testimony about 
addressing barriers to telework, and that doing that is a key 
practice for managing current and future Federal employees. Can 
you just talk briefly about what some of those barriers are 
that you see that need to be addressed that you view as a 
challenge to step up to?
    Mr. Goldenkoff. Sure. Well, one of the barriers is cultural 
within agencies. A solid notion that some managers have is that 
if I cannot see you, how do I know that you are working? So 
that needs to be overcome, and, you know, so long is that is 
pervasive, telework won't expand. There are also some startup 
costs. Agencies do have to invest in some startup technology. 
There is training. So those can be barriers as well. But 
overall, you know, it is something that is very doable. 
Agencies have successes with telework, and it does make good 
business sense. It helps, as you know, employees deal with 
work-life balance issues as well as various contingencies that 
occur in the local area, continuity of operations.
    Mr. Sarbanes. What is interesting is that I think the 
statistics demonstrate that in agencies where telework has been 
implemented in an aggressive and sustained way, sort of this 
notion of I cannot see you, are you working, goes out the 
window because they tend to be some of the most productive 
places to work. And when a culture of productivity takes hold, 
often spurred by the telework, it actually spreads to the 
entire work force, whether they are teleworking or not. So the 
benefits, the cultural benefits, of assimilating telework, I 
think, are there to be seen in the statistics, in the data. But 
we have got to make sure we are keeping track of what the 
barriers are so we can address them in a meaningful way.
    I want to now completely switch gears over to you, Ms. 
Conrad, because I know in your testimony, certainly your 
written testimony, you talk about how student loans are a 
pretty significant barrier to public service, and that, in 
particular, the proper implementation of the Public Service 
Loan Forgiveness Act would help with recruiting younger workers 
into Federal service. That is something near and dear to my 
heart because I was an author of the original PSLSF Program, 
and I am anguished by the failure for that to be implemented in 
an effective way, and the impact it is having, frankly, on 
millions who could potentially benefit. Can you talk a little 
bit about that in the context of how Federal employees are 
accessing or could access a properly implemented student loan 
forgiveness program.
    Ms. Conrad. Well, thank you very much for asking the 
question.
    Mr. Sarbanes. I think your mic is not----
    Mr. Connolly. Yes, you have got----
    Ms. Conrad. Thank you very much for asking the question. I 
remember I actually worked with you, Mr. Sarbanes, many years 
ago on that legislation.
    Mr. Sarbanes. Yes.
    Ms. Conrad. I am very excited that it was enacted. You are 
right. I think this is an example of where Congress has given, 
you know agencies, the ability to use this tool, and it is not 
being implemented to the way that you all had envisioned when 
you set this up. Certainly student loan debt right now is a 
huge, huge issue among young people in our country, and it is a 
real barrier for talent coming into public service if they 
don't have access to programs. So the Federal Government does 
offer a student loan repayment program, and then you have the 
public service loan forgiveness legislation that you had 
championed.
    So I think through the oversight process here, there is a 
real role for Congress to play to really try to figure out how 
to fix this and add greater clarity for implementation because 
otherwise we are leaving, you know, many, many young Americans 
on the sidelines who thought they could access this benefit and 
it turns out they can't.
    Mr. Sarbanes. Thank you.
    Just in closing, I am going to encourage our committee to 
look for opportunities to potentially bring some of these loan 
servicers in here and demand some accountability from them 
because they are not acting for the benefit of the borrowers. 
They are just protecting their own industry.
    With that, I yield back. Thank you, Mr. Chairman.
    Mr. Connolly. I thank my friend and I look forward to 
working with him to make sure the committee marks up the 
followup telework legislation we have been collaborating on so 
we can set some metrics within the Federal Government and, 
hopefully, encourage telework where it is appropriate.
    I thank the gentleman.
    I now call upon my friend from Wisconsin, Mr. Grothman, for 
his five minutes.
    Mr. Grothman. Thank you. First of all, I would just like to 
make a point. I think Mr. Reardon kind of was a little bit 
critical of this administration, and I will point, having 
talked to a lot of state employees, particularly in Wisconsin, 
it is very difficult and sometimes intimidating if they feel 
that not being--or being a little more conservative they are 
viewed hostilely by their Federal employees.
    You know, we need a lot of good Federal employees. We 
particularly need more people down on the border with the 
Border Patrol and I know the administration has been very 
supportive of them.
    But when you say things like critical of this 
administration if I am a more conservative person for whatever 
reason I may be intimidated or be afraid to work for the 
Federal Government because I am afraid I am getting myself in 
an environment that is hostile to conservative people.
    So I just--I just want to make that point.
    Now, a general question. I don't know if anybody's got it.
    Mr. Connolly. Did you want to allow Mr. Reardon to respond?
    Mr. Grothman. Well, it wasn't a question but if he wants to 
respond.
    Mr. Connolly. Mr. Reardon?
    Mr. Reardon. Yes. Congressman, thank you for saying that.
    So it gives me the opportunity to respond and here is what 
I will tell you--that I represent a labor union that represents 
about 150,000 employees and I will tell you that the people 
that we represent I have a large number that are supportive of 
the Republican Party, supportive of the Democratic Party, 
Independents, and many others.
    One of the things, if you are familiar with my public 
statements, I am very right down the middle. Here is what I--
here is what I look to. I want as much support from everybody 
in this room for Federal employees as possible.
    I am interested in people who support Federal employees. I 
represent--I represent employees at CBP. So the folks that are 
in the ports of entry down in Texas and in airports and 
seaports and so on and so forth, I represent those folks.
    I can assure you that I am not interested in, you know, 
saying derogatory things about anything. But with regard to the 
administration, I want to be very clear about what it is that I 
was referring to.
    We have had a 35-day government shutdown, and if we are 
looking at ways that we are going to entice people to come to 
the Federal Government, to Federal service, or to remain in 
Federal service, that is not a good way to do it.
    We had--we have had a enacted pay freeze that was 
ultimately overturned. That doesn't help.
    So there are a lot of things that are very personal and 
very important to Federal employees and that is--and other 
things that I could go into but that is why I made that 
statement.
    It is not for me from a--from a political angle. For me, it 
is about the impact on my members and their families.
    Mr. Connolly. Thank you, Mr. Reardon.
    In consideration to my colleague, I would ask that his full 
five minutes be restored because he was allowing Mr. Reardon to 
respond to an observation.
    Mr. Grothman. Thank you.
    I just--I have to respond.
    Mr. Connolly. Just one second. Can we put back five 
minutes, whoever is--there we go. Got it.
    Mr. Grothman. Thank you much.
    I just want to point out there was a shut down. I am not 
going to take sides on it. I will just point out it was a shut 
down over a wall.
    You showed a little bit of partisan coloring there because 
some people, of course, blame President Trump and some people 
would blame my colleagues next door for not agreeing to fund 
the wall.
    [The side] upon which side you are on [determines] who you 
blame for that. I would argue that they were both equally at 
fault, not one more than the other.
    But okay, now I will give another question here. In 
general, and I guess this is for Ms. Conrad, when it comes to 
people leaving employment and get a lot of statistics comparing 
the private sector to the public sector, percentage wise, say, 
if you are in your 30's, your 40's and your 50's, are there 
statistics available as to who is more likely to switch jobs or 
leave employment--the Federal employee or the private sector 
employee?
    Ms. Conrad. Sure. So we could followup and get you that 
information. I am happy to do that. I don't have it in front of 
me right now.
    But what I will say is that we do know that this next 
generation that is coming in to public service and actually 
just coming into the work force, more broadly, that they are 
really interested in having mobile careers. They are likely to 
move around and be in multiple jobs rather than first----
    Mr. Grothman. Well, that is okay. You don't know the answer 
to that question. You don't--you don't know. Okay.
    I will give a question to Ms. Greszler. According to a 2018 
Federal employees viewpoint survey, only 28 percent of 
employees believe sufficient steps are being taken to deal with 
underperforming employees who cannot or will not improve.
    Do you have any suggestions for Congress how we can--and I 
have heard this from people working in the government--what we 
can do to restore faith?
    It is very difficult if you are a hardworking person doing 
everything right to see the guy next to you or gal next to you 
not doing as much, nothing happens. Do you have any 
suggestions?
    Ms. Greszler. Yes. I am glad you brought that up because I 
have talked to a number of managers--Federal managers--that 
have explained how difficult it is for them when they have an 
employee who is kind of dragging down everybody else by not 
doing their job or refusing to follow the agency's mission.
    The process takes so long. It is so burdensome. These 
managers come in and they say, I am going to do the right 
thing. I am going to try and get the right employees in here 
who are willing to fulfill the agency's mission.
    They try to get rid of somebody. It takes a year and a 
half, on average. It takes hundreds of hours of their time and 
they simply give up because they can't do their own job because 
it takes so much time to comply with these lawsuit--not 
lawsuits but appeals processes.
    So one of the easiest ways to fix that would be to require 
employees to choose just one venue for an appeal if they have 
been dismissed. Currently, they can pick three out of our 
different venues and they can go from one to the next to the 
next to drag on the process.
    In the end, the decision almost always ends up being what 
it initially was, but it just takes the time and that deters 
managers from ever trying to dismiss a problematic employee.
    Some other recommendations there were just lowering the 
burden of proof. Currently, it is a preponderance of evidence. 
You could reduce that to substantial evidence.
    Also, increasing the probationary period just would give 
managers more than just one year to determine whether or not 
that employee is a good fit, but making it more than three 
years, and that could be better for the worker as well, kind of 
giving them an opportunity to test that out.
    Then just expediting the dismissal process. If you have a 
particularly egregious case of a Federal employee who has posed 
a threat, who has intimidated other workers, that employee 
should have a quicker process to be dismissed.
    Mr. Grothman. Okay.
    Next question, could you comment on, like, the average age 
of retirement or the number of people? I think we have a lot of 
people out there right now in their late 50's or 60's who still 
have a lot to give society.
    Is the Federal Government doing anything to find a way to 
hire them or bring them in, or could you comment on that?
    Actually, Ms. Conrad, I guess, is the one who should 
probably know.
    Ms. Conrad. Thank you. Yes.
    So I do know that Congress has given authorities to 
agencies to use authorities such as phased retirement programs 
and there are great opportunities out there for those types of 
programs where then current Federal employees are going to be--
--
    Mr. Grothman. No, not current Federal employees. There are 
a lot of people out there looking for a job in their late 50's 
and 60's.
    Ms. Conrad. Who are interested in coming in and----
    Mr. Grothman. Can we use any? Is there any----
    Ms. Conrad. Yes. So there are different types of 
authorities that agencies can use to bring talent in for short 
term. So you can think about the U.S. Digital Service. They 
have a program. There is the ATNF program. So these are 
different authorities----
    Mr. Grothman. Okay.
    Ms. Conrad [continuing]. that could come, bring down and--
--
    Mr. Grothman. One more quick question. Do we have any 
statistics for average age of retirement private sector versus 
Federal Government?
    Ms. Conrad. Sure. We can followup with those specific 
points. I don't have them in front of me right now.
    Mr. Grothman. Thank you all for appearing and I would like 
to thank my chairman for giving me some extra time.
    Mr. Connolly. Thank you, Mr. Grothman.
    The chair now--well, just one thing. Mr. Reardon, don't be 
afraid of being critical of the administration. There is 
nothing wrong with that, from this chairman's point of view.
    Some may take that as partisan but I think all of us are 
subject to criticism and if you are in charge of the government 
you are going to take some hits and justifiably so.
    So we don't want to discourage constructive criticism. 
Thank you.
    The chair recognizes the distinguished gentlelady from the 
District of Columbia, my friend, Eleanor Holmes Norton.
    Ms. Norton. Thank you very much, Chairman Connolly.
    First of all, I have to thank you for holding the hearing. 
This is the first hearing I can remember--it shows how long it 
has been--where we took a wide-eyed view of the Federal work 
force, which, in some ways, is collapsing before our very eyes.
    I don't think the public would want that to happen. Before 
I ask my questions, and I could have asked for time to speak so 
I hope you will give me this time because I have chosen your 
hearing in order to introduce a bill to provide short-term 
disability insurance for Federal employees.
    We know that they have long-term disability insurance. That 
is very important. But, amazingly, Federal employees do not 
have short-term disability insurance until they have been at 
least 18 months employed.
    If they become pregnant, develop a pregnancy-related issue, 
have a short-term disability, it seems to me that one of the 
things we want to do is to keep with at least to where the 
Federal Government often is, and my bill would say that an 
employee would have to pay for it.
    The way I got this idea, frankly, was talking to Federal 
employees who were paying for it. There are some who are paying 
for short-term disability as I speak but without a group rate.
    So I intend to work hard to try to get this bill passed and 
ask that the chairman give us some priority on that.
    Mr. Connolly. I thank the gentlelady and I would simply 
underscore it is in addition to the examples you gave. If you 
have an accident and you have to be out of work to have surgery 
and physical therapy, that is not a long-term chronic condition 
but it may require a few months and you do need short-term 
disability when you are out on a leave.
    So there are lots of exigent circumstances, I think, where 
we need that kind of consideration. Thank you.
    Ms. Norton. I certainly appreciate that. I think you seldom 
find people buying insurance on their own and paying for it. It 
tells you everything about the need.
    I am very troubled by this age gap. I think the Federal 
work force is withering away, and they are going to other 
occupations, particularly technical occupations, which provide 
no benefits.
    Federal Government does at least provide that. I am 
concerned with what is maybe causing that, especially 
considering that there are some ways in which the Federal 
Government is superior as an employer.
    So my figures show me that five times--there are five times 
as many people in the government's IT occupation over 60 than 
under 30. That is what I mean by dying out.
    Perhaps you, Mr. Goldenkoff, could tell us what risks the 
Federal Government faces if we fail to recruit the young people 
for whom IT is almost a second language.
    Mr. Goldenkoff. Sure. Well, thank you for that question.
    I think I know the data that you are referring to and it 
makes a very interesting graphic if you look at it visually. If 
you look at the IT work force, it is getting older. But at the 
same time, the percentage of younger IT workers in the Federal 
Government is going down.
    So there has been this increasing gap in the middle as 
these two lines separate from one another and I think you hit 
the nail right on the head.
    One of the risks there is it is less effective more costly 
government. At the end of the day, the capacity of the Federal 
work force needs to equal the demands of the mission and when 
that equation goes out of whack, bad things happen.
    The work needs to get done one way or the other. So it 
means that the Federal Government may need to bring in more 
contractors and that is going to cost money.
    In some cases, the quality of the work goes down. Some 
cases the work--the timing of the work it gets slowed down. 
So----
    Ms. Norton. Well, Mr. Goldenkoff, let me--let me followup 
on that. We do have a lot of contractors and those contractors 
are on their own. They don't have any benefits. They don't have 
any sick leave.
    So we are not only diminishing the Federal work force but 
we are giving them so few benefits why come at all?
    One of the reasons that you wanted to come to be a civil 
servant is the benefits. So if you don't get that--and the pay 
isn't the equal to where it is in the private sector--why 
shouldn't people go elsewhere as, apparently, they are?
    Mr. Goldenkoff. Okay.
    Ms. Norton. In other words, I am questioning whether 
contractors are a solution to this dilemma since we have so 
many contractors in the Federal Government always.
    Mr. Goldenkoff. Yes. I mean, it depends on the nature of 
the work and, you know, and this is what Federal agencies need 
to think about and that is their total work force--what jobs 
are best suited to be performed by career Federal employees--
what jobs are best performed by others.
    So you don't want that to be your default strategy because 
you have no other alternatives and that is what could happen if 
we--because of a failure to get younger people into the civil 
service if that talent pipeline suddenly stops or turns into a 
trickle.
    Ms. Norton. Thank you very much.
    Mr. Chairman, I would like to discuss with you after this 
hearing the possibility of more aggressive outreach by the 
Federal Government, perhaps a bill that would instruct OPM to 
report to us on an outreach program.
    Maybe it won't say we are the best and brightest when it 
comes to benefits, but I don't believe the Federal Government 
is recruiting. I just think it says, okay, if you are here we 
will look at you and see whether we should hire you.
    If they are going to compete with the private sector, it 
seems to me they got to be out there with the private sector 
trying to get the best workers.
    Mr. Connolly. Well said.
    Mr. Reardon, you looked like you were----
    Mr. Reardon. I was.
    Mr. Connolly [continuing]. thirsty to want to respond to 
that.
    Mr. Reardon. I was. Thank you.
    You know, on this issue, I think it is--I think it is 
important that we make certain that, you know, the folks that 
we want to bring in to Federal service--well, let me say it 
this way.
    Our best recruiters should be and I think could be our 
current Federal employees, and let me give you an example. So 
at CBP NTEU I represent the employees I mentioned earlier in 
our ports of entry--land border, airport, seaports, so on and 
so forth.
    We are short in this country 3,300 CBP officers across the 
country. I will tell you that I deal with those folks all the 
time and they love their mission and they love their country.
    Most of them that I speak to, or at least many of them--let 
me say it that way--many of them will not go home and tell 
their sons or their--or their cousins or their best friends to 
come to work at CBP.
    The reason they won't is because not--not because of pay. 
It is because we don't have enough of them so the staffing is 
short, and what they end up having to do is they end up being 
sent on 60-day or 30-day TDYs to different parts of the 
country. They end up having to work 16-hour days day after day 
after day.
    So my point is this. We have got to make sure that we are 
taking care of our current Federal employees because they are 
the ones who are, in large measure, going to be able to go out 
and tell people, you got to come work for the Federal 
Government--this is the place to be.
    Mr. Connolly. You have also underscored we do need to take 
care of our current Federal employees. But in the 16-hour 
workdays in the conditions you describe, the only ultimate 
answer to that is more of them to share the burden, and that 
comes back to the whole question of recruitment and retention. 
I think that gets more difficult, not easier, as we move out 
generationally.
    A rule--a strict juridical rules-based Federal workplace is 
not going to work with the millennial generation.
    We are going to have to reimagine how we do that while 
protecting people's rights that we worked so hard to build. But 
how do we build a work force and a workplace of the future that 
can compete for employees--talented employees, and I think that 
is really our big question.
    I would be glad to work with you, Ms. Eleanor Holmes 
Norton, in trying to reimagine that.
    I now call on my good friend from one of the Carolinas.
    [Laughter.]
    Mr. Connolly. Which one am I calling on? All right.
    Mr. Norman from South Carolina?
    Mr. Norman. Thank you to each one of you for taking the 
time to come.
    Ms. Greszler, I think I understood you right to say that in 
an effort to get pay up you would eliminate performance 
standards. Is that right?
    Ms. Greszler. No. I think--so you would need to increase 
the performance-based pay increases. Instead of having it just 
be a de facto 99.9 percent of Federal employees get a pay raise 
simply because of their tenure, we need to be using true 
performance-based pay raises more frequently.
    Mr. Norman. Okay. So the standards you are in favor of 
leaving, having performance standards like the private sector 
does--having that in place that would benefit?
    Ms. Greszler. I think managers need more flexibility to be 
able to give true quality pay raises.
    Mr. Norman. Now, I think you were--tell me if I am wrong--
that you referred to a study by the CBO that said the pay for 
government employees was less than the private sector.
    Is that right?
    Ms. Greszler. That is for people with professional and 
master's degrees. Their overall compensation is 18 percent 
lower and their pay is also slightly lower. I believe it is 
three percent lower at that level.
    Mr. Norman. But at all levels across the board, am I 
right--I mean, you agree with the study that overall it is 
higher than----
    Ms. Greszler. Overall, it is higher. Both the compensation 
and the pay are, overall, higher on average.
    Mr. Norman. Okay. How would you suggest on pay raises--what 
is it based on now? Because we--again, as I told you, we hire 
people a lot from government.
    They are fed up with the hierarchy, people not getting--
and, Mr. Reardon, to get back to your point, the--a lot of them 
were just upset with the bureaucracy of the interoffice play 
that they have to deal with.
    That is why they get--a lot of them get out. It is not 
because of pay. It is not because of retirement benefits. It is 
really not because of the job, but it is this thing with 
elevating people who either don't deserve, in their mind, or 
for other reasons. How would you respond?
    Ms. Greszler. Well, as I say, there is just this GS scale. 
A grade in your step and you just march up it based on the 
number of years that you have been there.
    You come in at a certain position and so it is pretty clear 
on day one how long it will take you to get whatever level you 
want to get to, and I think that we should have some more 
flexibility. There are actually tools available to manager 
currently but they are just not used that frequently. Whether 
it is moving an employee up more quickly than is scheduled, 
which is currently anywhere between one and three years.
    But they are not utilizing the tools and that might be 
because it is difficult. I don't know if there is pushback from 
unions that don't want to see certain employees moved up over 
other ones. I am not quite sure what the reason that we are not 
using true performance-based measures is.
    Mr. Norman. Are internal surveys used?
    Ms. Greszler. I don't know if they are used within the 
agencies. I just know of the overall government satisfaction 
survey.
    Mr. Norman. Let me tell you one thing you may want to in 
your role look at. In the private sector, particularly banks, 
you want to weed out the weak performers, do a outside internal 
survey where it can't get back to the supervisor. It is from an 
outside agency.
    They will tell you exactly who is not performing the job 
and they will tell you why. They will give you examples. A 
well-worded survey is worth gold in the private sector. I have 
never heard of it in the--in the government sector, and it 
should be.
    Anybody else have any comments to that? Mr. Reardon?
    Mr. Reardon. Yes, I do. Thank you.
    The first thing that I wanted to touch on was the--this 
whole notion of the study that was done by the Congressional 
Budget Office, which, as I recall, says that Federal employees 
are paid 17 percent, on average across the board, more than 
those in the private sector.
    I would just tell you that I think the methodology that is 
used in that Congressional Budget Office model is inaccurate or 
it is not really the right way to look at it.
    Mr. Norman. How would you change it?
    Mr. Reardon. Well, I think--I think the methodology that is 
used by the Department of Labor is actually the right one and 
here is why.
    The CBO really looks at things like, you know, what is 
somebody's educational level that they have attained. You know, 
it looks at some other things pursuant to that individual.
    What the--what the Department of Labor study looks at is a 
comparison from actual job duties in the Federal sector to 
actual job duties in the private sector. So it is kind of an 
apples to apples comparison.
    So what the president's pay agent say--Department of 
Labor--what they said was that in fact Federal employees are 
paid 32.4 percent lower than their private sector counterparts.
    So I think--I think that is important. In terms of the GS 
schedule--I just wanted to quickly touch on that and the whole 
issue of it being so difficult to get rid of Federal 
employees--I don't actually think it is all that difficult.
    The tools are there. Here is the problem, from my 
perspective and talking to a lot of Federal employees. The 
problem is that managers are not trained to deal with those 
problem employees, and I just point to, for example, back in 
about 2013 or 1914, I think it was, if you look at one of the 
agencies where we represent employees is the Internal Revenue 
Service.
    In that agency in one of those years--I don't remember the 
exact one so please don't quote me on it--but there was an 85 
percent cut in training.
    Well, these managers have to be trained. You don't just 
show up in the workplace knowing how to--knowing how to 
effectively manage people and lead people.
    So I think it is important that we really look at managing 
folks. In terms of the GS schedule itself, managers have the 
ability to withhold a within grade increase or a career ladder 
increase. They can simply withhold it.
    I think there are ways to, if you have a really--a really 
high performer you can certainly utilize a quality step 
increase to get them more money.
    The problem is that in the Federal Government right now I 
think the last numbers I saw is that there are something on the 
order of three percent of Federal employees who are provided a 
quality step increase.
    So I think there are some of those flexibilities that are--
that are available. It takes money to actually utilize those.
    Mr. Connolly. Thank you, Mr. Reardon.
    Did you want to comment, Mr. Goldenkoff?
    Mr. Goldenkoff. Sure. Well, a couple of things.
    I mean, GAO----
    Mr. Connolly. You don't have to.
    Mr. Goldenkoff. Oh, well----
    Mr. Connolly. You look like you wanted to.
    Mr. Goldenkoff. Well, just to maybe build on some points 
here. One is that we did look at six different pay studies that 
were done several years ago comparing private sector and 
Federal Government pay. They all said different things.
    So our finding on that was not that any one study was 
wrong. It is just that they looked at--they used different 
methodologies, as was mentioned. They had different 
assumptions.
    So you can't take one study and think of it in isolation 
and say that is the final word on which sector gets paid more.
    But the other thing I just want to mention here because it 
kind of links the two thoughts here by Ms. Greszler and Mr. 
Reardon, which is that, you know, pay increases.
    GAO would agree that pay should be more performance 
oriented and the way pay increases are done now a lot of it is 
not performance based.
    So what happens is that in order to get--once you top out 
within a grade sometimes in order to get to higher salary 
levels and keep people agencies have no choice but to promote 
them into supervisory positions and that gets into the point 
that Mr. Reardon was making, which was that we don't have good 
supervisors, you know, because they are maybe good at their 
technical jobs but they don't have the skills to actually lead 
and inspire and engage people and they also don't know how to 
do proper performance management.
    So a lot of this, my point is, is that it is all marbled 
together and so we just can't pull any one thing out and look 
at it separate and say, oh, that is the problem--let us just 
deal with that. It all needs to be considered comprehensively 
and holistically.
    Mr. Connolly. Thank you.
    I will simply say intuitively we--I think any one of us who 
came from the private sector would say it is going to be hard 
to hire lawyers when the private sector or law firm can command 
X and we can only go up to Y--at least good lawyers.
    I can tell you, you know, we have wonderful attorneys 
within the Federal Government but we also--you know, I can 
remember friends who would observe about, for example, Supreme 
Court cases where the people are being outgunned by incredibly 
educated smart well-off highly resourced private sector 
attorneys, and we do the best we can. Not to disparage the 
public but, I mean, we just--we can't compete with it.
    When it comes to technology, Mr. Meadows and I have done a 
lot of work in that area on this committee and subcommittee, 
and I can tell you that the--you know, the generational thing 
really matters when we come to IT because, you know, certain 
age level and, you know, you were born to technology like fish 
are born to water.
    And if we are not competing in that realm with that talent 
pool it affects everything we do, including--like Mr. Meadows 
and I have looked at the large RPs.
    Even having the technical know-how to translate the terms 
of reference into the correct language to get the technology or 
the system or software we need is a challenge and we have to 
rely on the private sector to help us do that.
    You can go down the list of professions, increasingly, that 
require high skills and our ability to compete both because of 
this juridical rules-based work environment the lack of cogent 
benefits that Ms. Norton and others have referenced and the pay 
scale.
    So simply lumping everyone together, as Mr. Reardon says, 
is not all that helpful. It is let us disaggregate categories 
we know we are going to need--scientists and technologists and 
the like--and try to figure out how we--how we be competitive 
as we move forward.
    I took more time than I should have but I was amplifying on 
what--I think your point is well taken. You can't just lump 
them together.
    You really have to disaggregate and I think as we move 
forward we are going to have to prioritize, pending some 
comprehensive re-do, restructure of the whole system.
    Mr. Meadows?
    Mr. Meadows. Mr. Chairman, thank you. I thank all of you 
for your testimony. So, I was interested in the back and forth 
between you, Mr. Reardon, and Ms. Greszler in terms of just 
your perspective.
    So, Mr. Reardon, would you support something that truly 
reformed our GS scale where it says, all right, we are not 
going to just do these levels with this step increase--that we 
truly make it performance-based?
    Because you were saying that a lot of times they don't 
actually get an extra amount of money based on performance. You 
know, they will get their normal step increases.
    So, is that something that you think the unions could 
support? Because it would fundamentally change the way that we 
do things and it scares people.
    So, I am asking a just--it is not an I gotcha question. It 
is, literally, one of those that is it worth pursuing.
    Mr. Reardon. Well, so thank you for that question, Mr. 
Ranking Member.
    You know, from my perspective, we have got a system in 
place and I think, if utilized properly, it would work. But we 
don't utilize it properly.
    What I would like to see is that--for example, I mentioned 
the quality step increases, which puts right now extra money in 
people's pockets if a manager and the agency determines that 
that person is such a high performer that they deserve another 
step.
    Mr. Meadows. But you have that in a way right now because 
you have bonuses that you can give that are exceptional bonuses 
that are allowed to be given and so there is maybe not an 
incentive there to do that.
    But we have that ability. But what happens is if 70 percent 
of your work force knows that if I just show up and I am, you 
know, breathing then I am going to get this next step and it 
has nothing to do with performance, which Ms. Conrad's surveys 
would suggest that the majority of your--you know, I looked at 
actually the workers that you represent.
    So the majority of the workers you represent believe that 
they are not getting increase based on performance. Did you 
realize that?
    Mr. Reardon. Well, I certainly expect that there are some 
who----
    Mr. Meadows. No. No. I am saying across the board the 
majority of your employees who--you know, if you look at it as 
an aggregate, they don't believe that they are getting paid 
according to their performance--the ones that you represent.
    Mr. Reardon. Well, and I will tell you that I think in 
large measure what that comes down to, and I am going to use an 
actual example so that, you know, we are talking about 
something specific.
    If you look, for example, at the Internal Revenue Service, 
up until 2014, I believe it was, 14 percent--13 to 14 percent--
of the bargaining unit employees, the people who can belong to 
NTEU----
    Mr. Meadows. Right.
    Mr. Reardon [continuing]. received a quality step increase.
    Mr. Meadows. Right.
    Mr. Reardon. Okay. So they--so instead of being a grade 12 
step--a grade 12 step nine, they became a grade 12 step 10 or 
whatever. But they got an additional----
    Mr. Meadows. Step increase. Yes, I got it.
    Mr. Reardon. Okay. So and the only way that they get that 
is if the agency determines that they are a high performer and 
are deserving of that.
    So 14--13 to 14 percent several years ago in the IRS got 
that. Right now, I believe the last numbers I saw is it is 
somewhere in the neighborhood of three to four percent.
    So I don't believe that we are actually utilizing some of 
the tools that are already there.
    Mr. Meadows. So I will give you that. So I go back to the 
previous surveys when you are at your 14 percent. When was 
that?
    Mr. Reardon. I think it was 2013, 2014--in that 
neighborhood.
    Mr. Meadows. Okay. So you are same employees were still 
saying at a very similar level to where they are now that they 
weren't getting recognized based on their performance.
    So whether it is three percent, 12 percent--I guess what I 
am getting at is when you have these certain steps and they are 
not based on merit, it becomes a demotivator and I think you 
can see the surveys that we get that would suggest even within 
your covered employees they are demotivators.
    So how do we fix that? If you are saying, listen, all I 
want is a little bit more money at the top--that would fix it 
for you--that is good. At least we know not to embark on it.
    But if you fundamentally want to change, I am one of the 
few Republicans who are willing to say that I want you to be 
paid. I want to attract new workers. I am willing to invest 
dollars to reform it and make it work.
    I am also willing to hold harmless to make sure that people 
are not getting penalized because we are going through a 
reorganization to do that. But if that is just barking up the 
wrong tree I need to know that.
    Mr. Reardon. Right. Well, I mean, I appreciate----
    Mr. Meadows. So is it barking up the wrong tree?
    Mr. Reardon. It may be.
    Mr. Meadows. Okay. I will yield back.
    Mr. Reardon. So but here--but let me--no, but let me be 
clear. You know, I never say, without knowing all the facts----
    Mr. Meadows. No, I get that. But----
    Mr. Reardon. Hold on. I mean, I am willing to listen. I am 
absolutely willing to listen. But what I am telling--what I am, 
you know, passing along to you is that my members, and I 
personally believe that there is a system in place that would 
work if it was properly utilized.
    Mr. Meadows. Yes. See, and that is where probably 
fundamentally we disagree, but that is okay.
    Mr. Reardon. Okay.
    Mr. Meadows. I yield back.
    Mr. Connolly. I thank my friend.
    As he knows, based on my own experience both in the public 
sector and private sector, you have got to have incentives and 
you also have to have disincentives. You have got to recognize 
performance from nonperformance.
    Example--I worked for a company once in the private 
sector--because, believe me, not all is perfect in the private 
sector--and my experience has been most managers would rather 
put their head through a pencil sharpener than to have to 
actually evaluate performance and nonperformance.
    They really hate it. Some managers relish it but most 
don't, because I got to--it is personal. You know, I got this 
little division or even big one and it is Harriet or Joe. It is 
not some nameless figure and I got to live with calling him or 
her out as a nonperformer or under performer.
    And, all right, I can remember one year there was a bonus 
pool for one of our divisions or departments--we had four. I 
won't name it.
    The head of that division, a very skilled, technically 
competent, highly educated man, just did not want to have to 
make decisions--qualitative decisions about who got a bonus and 
how much and who didn't.
    So he took it out, divvied it up, and gave $250 to every 
member of the department. Now, what was wrong with that? Well, 
it absolutely refuses to distinguish the star performers from 
the adequate or even subpar performers, and you can imagine the 
impact on morale and productivity when you do something like 
that.
    So the person who comes in early and stays late, volunteers 
for everything, often comes in on the weekends on his or her 
own to finish a project or the one who comes up with new ideas, 
the one who is the team player and is always also building 
social events to just help glue people together, she gets the 
same $250 as that clunker who literally is a clock watcher, 
doesn't care, hasn't had a new idea in 20 years, just does the 
job to the letter and no more.
    I am not going to distinguish between those two. When I 
give you both the same bonus I am saying as a manager I see you 
both as the same. And writ large, at some point the Federal 
Government has got to look at, while protecting people, making 
sure their rights are protected which I think is what holds us 
back.
    There has been a history of violation of people's rights 
and it makes it very difficult for anyone to want to change 
those rules until, as Mr. Reardon said, we see what comes next 
in advance.
    But, on the other hand, we have to look at performance for 
the Federal work force of the future. By the way, that 
Millennial generation we want to recruit from expects us to do 
that.
    I mean, that is going to be just a kind of given and I 
think that will put more pressure on us to adjust to the 
future.
    I see you are shaking your head, Ms. Conrad, and then I am 
going to close the hearing.
    Ms. Conrad. I just wanted to respond to a couple things 
that you mentioned earlier.
    So, first of all, you talked about the difficulty of 
attracting lawyers to government or IT specialists, and I 
wanted to share that, you know, we are supportive of a more 
market-sensitive approach to compensation and we hope that is 
something that we can have a conversation about because it is 
very difficult to compete for talent in some of those, you 
know, high-skill fields in government and it is something that 
is really important to address.
    I also just wanted to mention that----
    Mr. Connolly. Can I just interpret?
    Ms. Conrad. Yes.
    Mr. Connolly. Those who assert this number that--I don't 
know, 34 percent better pay or 17 percent or whatever it is--if 
that were really true, we wouldn't have a recruitment problem 
at all. People would be flocking to want to work for the 
Federal Government.
    Mr. Reardon's example of CPB wouldn't exist because, of 
course, those 3,300 positions would be filled because we are 
paying 17 or 34 percent more than the private sector. I mean, 
it is just--upon examination that can't be true on its face.
    Maybe some positions, but certainly not the ones we are 
trying to fill. And I interrupted you. I am sorry.
    Ms. Conrad. No. No. No. I would just--thank you--I would 
just argue that we need to look at compensation. We need to 
look at performance management. But, ultimately, this all 
starts with hiring.
    I mean, this is all about how do we make sure we are 
getting the right people in the door in the first place? How do 
we make sure that we are recruiting the right people and then 
how do we develop good leaders?
    How do we make sure we have the manager training? How do we 
make sure that there are growth opportunities? And another 
issue we haven't talked about today is the probationary period, 
making sure that, you know, there are some proposals to 
lengthen it but it is also just about how you use it and making 
sure there is an affirmative decision at the end of the 
probationary period to keep that person on and move into the 
civil service.
    So I just wanted to flag those issues as well.
    Mr. Connolly. Yes, that is a good one because in the 
previous Congress some of our colleagues looked at trying to 
extend the probationary period to two years.
    I pointed out for those who say we want to run government 
like a company I am not aware of a single company that would 
have a two-year probationary period and if they did they 
wouldn't be able to hire anybody.
    I worked in the private sector for 20 years for two major 
companies. It just--but that didn't stop some people from 
proposing it, which would make the job we are talking about 
today all the harder.
    Did you want to comment, Mr. Goldenkoff? Okay.
    Did you? Yes, Ms. Greszler?
    Ms. Greszler. If I could just make one final comment, that 
something I see as kind of low-hanging fruit in the way that we 
can help recruit workers and that is there is--there are 
differences in compensation and pay.
    But I think that part of the reason it is hard to attract 
workers is that a lot of the compensation is tied up in 
benefits, primarily retirement.
    If workers just have the option to take what goes into 
their pension--there are studies that show workers value 
pensions at $.19 on the dollar.
    If you had an option--you are earning $50,000 right out of 
college and you have $5,000 going into a pension that you don't 
know if you are ever going to see because you might not work 
for five years. It is 30 years off--if you could take that in 
pay instead.
    These are people who have student loans. They might be 
wanting to buy a home. They have childcare expenses. Just 
having that option to increase the pay. It is not just the 
Millennials who are job hopping and have these higher expenses. 
It is the lawyers.
    If we are talking about a $150,000 salary, that is $15,000. 
It is the older workers who might be 55 and think, I am not 
going to be in there long enough to vest into the pension but 
if I could take that as cash instead. So this is something I 
think across the board would help recruit workers.
    Mr. Connolly. Good point. At least being flexible about it. 
I mean, I am always telling young people I know it seems like 
it is eternity, but you would be amazed at how quickly you 
approach retirement and you want to start early.
    Mr. Meadows. Amen.
    [Laughter.]
    Mr. Connolly. Right. You want to start early. So but 
staying flexible I think is the point you are making and I 
agree.
    Can I make one final inquiry or invitation? And I also want 
to include my ranking member in this because he and I have 
collaborated on a lot of what we think are kind of good 
government things that never get any attention in terms of 
bipartisan cooperation. But we do it all the time and we want 
to do more of it.
    One of the ones I want to put on the table is what I 
mentioned in my opening statement. It has struck me how 
inadequate the Federal Government uses internships, and I just 
look at--like, here is one statistic that just really leapt out 
at me my staff gave me.
    So in 2010, new hires of interns--student interns--were, 
roughly, 35,000. Eight years later, that fell to 4,000. Now, I 
can tell you in good companies, you know, those numbers would 
be reversed. They are going up, and it is a very high 
percentage of people.
    Now, they often have really robust screening programs. I 
know one company goes to universities. It is a status symbol to 
be able to say, they hired me as an intern, knowing that your 
future is also ahead of you and guaranteed if you want it.
    If you are an intern with company X, you almost certainly, 
unless you mess up, you will be given a job offer and off you 
go to the races. We don't do that at the Federal Government.
    When I looked at this a few years ago when I first got 
here, I mean, I was shocked there is no systematic mentorship. 
There is no guaranteed rotation around an agency so you get 
exposed to the different missions and maybe pick one you like.
    There is no debriefing or exit interview when you had your 
internship to make sure it went well. There are no criteria for 
what happens.
    As a result, as you might expect, very low percentage of 
interns--Federal interns--end up joining the Federal work 
force.
    Now, this is one right in front of us, right. We don't have 
to go to anywhere. They are interning and that is, it seems to 
me, our first resource and yet we are not using it.
    That is something I would like to correct and I welcome all 
four of you to share in more depth, and Ms. Conrad, you did 
address it explicitly.
    But it is--to me, it is at least something we could 
influence and to the positive and learn from--how the private 
sector does it and does it well.
    I welcome all four of you giving us your thoughts on that 
as we think about maybe a legislative remedy to make it more 
effective.
    Ms. Conrad. Can I----
    Mr. Connolly. Yes.
    Ms. Conrad. I want to just quickly respond to that, Mr. 
Chairman, and share that I think one of the biggest challenges 
that agencies are facing are around work force planning and 
they are not making internships a key part of their work force 
planning. They are not setting aside the FTE slots for interns 
and for recent grads and so I think that is one of the key 
areas.
    Then I would also say that we need to really be focusing on 
figuring out how government can compete with other sectors.
    So the private sector is on campus in the fall and they are 
making internship offers in the fall for the next summer, and 
they can do them on the spot and government can't do that.
    There are not that many agencies on campus in the fall. 
Many are recruiting in the spring when other offers have 
already been made and they are not able to do the on-the-spot 
offer.
    So I think we need to look at how to open up this system to 
make it easier for interns to be able to come into government.
    Mr. Connolly. Yes, but let me tell you, when we have looked 
at--just anecdotally, not empirically because we don't really 
have such data--but I am barely exaggerating some of the 
reactions when they did do exit interviews, that the experience 
was so wretched. You know, I would rather spend time in a 
Taliban prison camp than return to Federal service.
    That is how bad the experience was, and that is a signal 
failure. I mean, better you not have a program. But it is also 
just a waste of a resource in our command that we could use to 
help us a little bit.
    It doesn't solve everything but it is ready at our command 
and we are not using it.
    So did you want to comment?
    Mr. Goldenkoff. Yes. No, these are all excellent points and 
agencies can and should be taking greater advantage of 
internships. It is an excellent way of building a pipeline into 
government.
    An important factor, though, is that it would be more 
helpful if interns could be converted noncompetitively to 
permanent career employees. That is no longer the case in many 
instances.
    GAO--we make extensive use of internships. As a matter of 
fact, myself and my whole team here--shout out to my team--we 
all started our service in the Federal Government as interns.
    I started at GAO 30 years ago as an intern, then later 
became a Presidential management intern. We have a current 
intern with us, Tarenda--she is from Howard University--and my 
two other colleagues, Allison and Shelby, also came in as 
interns. The way--so GAO--we do it through effective campus 
recruiting.
    We build that as a brand on college campuses and so may get 
to this in a separate discussion but we do actively recruit on 
campus not just as a one-time event.
    We build relationships over time so that we just don't 
power shoot in when they are having a career fair. You are not 
going to get a good response that way.
    But we do have at GAO the ability to convert people non 
competitively and a big proportion of our work force--of our 
entry level work force in any given year came in as interns. We 
also give them challenging work to do.
    We treat them just like everybody else. We don't just throw 
them a copy machine.
    Mr. Connolly. I think--and no wonder you have success.
    Let me just say, though, what I learned when I innocently 
came to this. Like, why aren't we using internships more 
creatively, was that there was some history?
    And while you all may have used it creatively and well and 
to effect, I know Mr. Reardon would remember that in the Bush 
years there were some agencies that, under the guise of 
internship, back doored people they wanted to place who 
otherwise might not be qualified at the expense of people who 
were qualified and lost their opportunity to work.
    So we have got to make sure it can't be abused if we are 
going to make this work. I want the flexibility you described.
    But I also want to make sure we avoid sins of the past so 
that we can have full confidence, moving forward, that it is a 
creative tool we use, not a club we use to punish or favor 
certain categories of people by getting around the normal 
hiring process.
    Mr. Reardon?
    Mr. Reardon. I would also just add to that that, you know, 
I would hope that we would make sure we pay attention to 
veterans preference and not, you know, lose the importance of 
that as well.
    Mr. Connolly. That is right.
    Listen, I want to thank all four of you. Thanks so much. I 
think this is an important discussion that may be--very well be 
one of a series we end up having because we have got to figure 
out the future and one hearing doesn't do it.
    But I really thank you all for the thought you put into 
your testimony and I invite you, as I said, for followup in 
terms of plans of action.
    The specific one I give you is internships--how can we 
better, more creatively, make it work for us in the recruitment 
challenge we face and in filling some of the ranks we have 
talked about that go sort of begging and do a better job, or 
begin to look more like how the private sector succeeds than 
how we look right now.
    I thank you all so much. This hearing is concluded.
    [Whereupon, at 4:06 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
